WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 20-6581
Kimberly Hanzlik y, Joseph Joseph, Superintendent

(Petitioner) (Respondent)
IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
{ Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed si: yur admission):

   

 

Signature

Date; December 11, 2020

 

Lisa Ellen Fleischmann
DO ™. U Ms. Mrs. O Miss
NYS Attorney General

(Type or print) Name

Firm.
Address 28 Liberty Street

City & State New York, New York Zip 10005
Phone_2!2-416-8802

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Irving Cohen, Esq.
